STUART BANNER
NORMAN ABRAMS DISTINGUISHED PROFESSOR OF LAW

SCHOOL OF LAW
BOX 951476
LOS ANGELES, CALIFORNIA 90095-1476
Phone: (310) 206-8506
Email: banner@law.ucla.edu

January 21, 2021
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Alaska v. Wright, No. 20-940
Dear Mr. Harris:
I am counsel for respondent Sean Wright in the above-referenced case.
Respondent’s brief in opposition is due February 12, 2021. Pursuant to Rule 30.4,
I respectfully request an extension of 30 days, to and including March 15, 2021,
to file the brief in opposition. This request is necessary because I was not
involved in this case until very recently and other matters will demand my
attention in the next few weeks.
Sincerely,
Stuart Banner
Norman Abrams Distinguished Professor of Law
cc: Timothy Winn Terrell, counsel for petitioner

